                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION



                         Review of NRC’s Dry Cask
                             Storage Program

                       OIG-01-A-11       June 20, 2001




                      AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
                     http://www.nrc.gov/NRC/OIG/index.html
                                             June 20, 2001




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF NRC’S DRY CASK STORAGE PROGRAM
                              (OIG-01-A-11)


Attached is the Office of the Inspector General’s audit report titled, Review of NRC’s Dry Cask
Storage Program.

This audit was conducted due to the increased importance of dry cask storage. More than
1000 dry casks are expected to be in use by the end of the decade, and additional designs may
need to be certified. Use of the direct final rule process for those certifications could result in
significant savings of time and dollars.

At exit conferences on May 10 and June 6, 2001, agency staff agreed with our
recommendations, and provided editorial suggestions that have been incorporated into the
report where appropriate.

If you have any questions, please contact Bill McDowell at 415-5974 or me at 415-5915.

Attachment: As stated

cc:     J. Craig, OEDO
        M. Bridgers, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B. Garrick, ACNW
D. Powers, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, OSP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                        Review of NRC’s Dry Cask Storage Program


EXECUTIVE SUMMARY

    BACKGROUND

          In the early 1980's, the Nuclear Regulatory Commission (NRC) predicted that 39
          nuclear plants could run out of needed space in their spent fuel pools by 1990.
          In 1982, Congress passed the Nuclear Waste Policy Act in an attempt to, among
          other things, address the need for nuclear power plants to store spent fuel
          without adversely affecting plant operations. The Act directed the Commission
          to (1) expedite effective use of available storage at reactor sites; (2) approve the
          use of one or more technologies without the need for approval specific to each
          site; and (3) establish procedures for licensing that technology.

          The technology adopted for interim storage of spent fuel was dry cask storage.
          According to nuclear power industry estimates, there are about 230 casks loaded
          on spent fuel storage installations at reactor sites. The industry projects more
          than 1000 casks will be loaded by the year 2010.

    PURPOSE

          This audit was conducted due to the increased importance of dry cask storage.
          The objectives of the audit were to determine whether (1) the intent of the
          Nuclear Waste Policy Act that the NRC encourage and expedite the process by
          which licensees provide additional storage for spent nuclear fuel was met, and
          (2) opportunities exist to improve the dry cask certification process.

    RESULTS IN BRIEF

          One objective of the Nuclear Waste Policy Act was to avoid nuclear power plant
          shutdowns due to the loss of spent fuel storage capacity. Because of reracking
          and limited use of dry cask storage, no licensee to date has shut down a plant
          due to loss of spent fuel storage space. However, only limited additional storage
          capacity is available through continued reracking. Thus, more than 1000 dry
          casks are expected to be in use by the end of the decade. Additional cask
          designs may need to be certified. Use of the direct final rule process for those
          certifications could result in significant savings of time and dollars.

    RECOMMENDATIONS

          To improve the dry cask storage certification process, OIG recommends that the
          Executive Director for Operations: (1) revise the NRC Regulations Handbook to
          recommend the use of the direct final rule for new cask certifications, (2) revise
          the NRC Regulations Handbook to clarify the definition of “noncontroversial” as
          it pertains to the use of the direct final rule, and (3) publish the criteria for
          significant adverse comments in each direct final rule package.




                                            i
                            Review of NRC’s Dry Cask Storage Program




[Page intentionally left blank.]




               ii
                                                                            Review of NRC’s Dry Cask Storage Program


TABLE OF CONTENTS


    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

    I.       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

    II.      PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

    III.     FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                        A. CONGRESSIONAL INTENT W AS MET . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                        B. OPPORTUNITIES EXIST TO GAIN EFFICIENCIES
                             IN CASK CERTIFICATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

    IV.      SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

    V.       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

    VI.      MANAGEMENT RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

             APPENDICES

                       A.         SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . 11

                       B.         SIMPLIFIED VIEW OF NRC’S CASK APPROVAL
                                    PROCESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13




                                                          iii
                            Review of NRC’s Dry Cask Storage Program




[Page intentionally left blank.]




              iv
                                                               Review of NRC’s Dry Cask Storage Program


I. BACKGROUND

        NRC currently regulates 103 commercial nuclear power reactors that produce
        about 20 percent of this nation’s electricity. These reactors are powered by
        enriched uranium-235 fuel in the form of small cylindrical pellets loaded into long
        rods. These rods are combined into fuel assemblies that typically contain about
        200 fuel rods, are nearly 14 feet in length, and weigh approximately 900 pounds.

        When this fuel can no longer sustain power production, it is removed from the
        reactor and placed in a spent fuel pool(1) to cool for at least 1 year. Utilities
        anticipated the availability of either a fuel reprocessing(2) facility or long-term
        spent fuel disposal in a
        repository. Therefore, most
        plants’ spent fuel pools were not
        designed to store all of the fuel
        used by the plant during its
        operating life. Reprocessing
        was removed as an option
        during President Carter’s
        administration (1977-1981)(3)
        and a permanent repository to
        accept spent fuel is not
        available. Consequently, spent
        fuel continues to accumulate at
        reactor sites. If a licensee is
        unable to offload fuel from the
        reactor into the spent fuel pool,
        the plant may have to shut                      A fuel assembly is loaded into a cask
                                                                in a spent fuel pool.
        down.                                                                         Source: Holtec, Intl.

        In 1982, Congress passed the
        Nuclear Waste Policy Act in an attempt to, among other things, address the
        need for nuclear power plants to store spent fuel without adversely affecting
        plant operations. The Act directed the Commission to take actions to encourage
        and expedite the effective use of available storage at reactor sites. Section
        218(a) of the Act required that the Department of Energy establish a
        demonstration program with the private sector for the dry storage of spent




    1
        A spent fuel pool is an underwater storage and cooling facility for fuel elements that have been
        removed from a reactor.
    2
        Fuel reprocessing is the processing of reactor fuel to separate the unused fissionable material
        from waste material.
    3
        President Reagan reversed the Carter policy but there was little interest by the industry in
        reprocessing. Later, President Clinton reinstituted the ban on reprocessing.

                                                 1
                                               Review of NRC’s Dry Cask Storage Program



nuclear fuel at nuclear power plants. The intent was to establish one or more
technologies that NRC may, by rule, approve without the need for additional site
specific approvals. The Act also required that NRC, by rule, establish
procedures for licensing that technology. Technologies considered as
alternatives for expanding onsite storage capacity included casks, dry wells, and
air-cooled vaults.

The technology adopted for interim storage of spent fuel was dry cask storage.
Storage casks are steel or concrete, and vary in size and capacity. For example,
one type of steel cask is about 17 feet high and 8 feet in diameter, weighs
around 115 tons when loaded, and holds 32 fuel assemblies. According to
industry estimates, there are about 230 casks loaded at 16 reactor sites. The
industry also projects that 1000 casks will be loaded by the year 2010.




                       Dual purpose dry cask
                                                     Source: Holtec, Intl.




                                2
                                                                                               Review of NRC’s Dry Cask Storage Program



                          In 1982, NRC predicted that 39 plants could run out of space in their spent fuel
                          pools by 1990. That did not happen because, among other things, licensees
                          reracked(4) their spent fuel so more space would be available in their spent fuel
                          pools. However, reracking will not solve all licensees’ longer-term storage
                          needs. Based on industry data, the chart below shows a current projection of
                          the number of plants that could lose needed space in their pools over the next 23
                          years without some method of interim storage.




                               PROJECTED YEAR PLANTS W ILL LOSE NEEDED SPACE
                                           IN SPENT FUEL POOLS

                   60


                                         Industry Data (M ay 2000)
                   50            *Plants not using dry c asks or other option




                   40
NUMBER OF PLANTS




                   30                                                                                         # of Plants Affected

                                                                                                              C umulative Total

                   20




                   10




                    0
                        2002    2003    2004    2005     2006    2007     2008   2009   2010   2011   2013   2015   2016    2017     2024




                   4
                          Reracking is utilized by licensees to increase capacity in the spent fuel pools by setting fuel
                          assemblies closer together and installing new storage racks. Many licensees choose reracking
                          over dry cask storage because it is simpler and has little impact on plant operations.

                                                                                 3
                                                           Review of NRC’s Dry Cask Storage Program



    Licensees must obtain NRC approval to use dry cask storage in one of two ways:

    Site-specific license. To obtain a site-specific license, a licensee operating a nuclear
    power plant requests authorization to develop and use an independent spent fuel
    storage installation which includes a dry cask or other storage system. Public
    involvement is provided through hearings that may be granted to those affected by
    the activity. Dry cask storage systems under a site-specific license are generally
    unique to that site.

    General license. To address Nuclear Waste Policy Act requirements, NRC granted
    operating reactor licensees a general license to use dry cask storage systems
    certified by NRC, provided the requirements of the certificate of compliance(5) were
    met. These certificates of compliance, and any changes (amendments(6)), go through
    the rulemaking process(7) which does not provide an opportunity for a hearing. The
    final rule, published in the Federal Register, provides official notification that a new or
    amended certificate of compliance has been added to the list of approved cask
    designs. Appendix B depicts NRC’s cask approval process for both site-specific and
    general licensees.




5
    NRC issues a certificate of compliance that indicates the acceptability of a dry cask storage
    system. The certification contains the conditions and limitations for using the storage system.
6
    Amendments are required for any alteration of the certificate of compliance, from an administrative
    change in ownership of the certificate to a technical modification of the dry cask storage system.
    Applications for amendments are changes submitted by the certificate holder to modify the
    certificate of compliance.
7
    Once a preliminary safety evaluation report is completed, a proposed rule is printed in the Federal
    Register. A period of time is provided to solicit comments from the public and interested parties.
    Resolution of comments and final rulemaking to add a cask to the list of approved casks are
    published in the Federal Register.




                                               4
                                                      Review of NRC’s Dry Cask Storage Program


II. PURPOSE

         Because of the increased importance of dry cask storage, the Office of the Inspector
         General (OIG) reviewed NRC’s dry cask storage program. The objectives of this
         audit were to determine whether (1) the intent of the Nuclear Waste Policy Act, that
         the NRC encourage and expedite the process by which licensees provide additional
         storage for spent nuclear fuel, was met; and (2) opportunities exist to improve the dry
         cask certification process. Appendix A contains information on the scope and
         methodology of this audit.




                                            5
                                                              Review of NRC’s Dry Cask Storage Program


III. FINDINGS

          One objective of the Nuclear Waste Policy Act was to avoid nuclear plant shutdowns
          due to the loss of spent fuel storage space. As a result of NRC and industry actions,
          no plants have shut down for that reason. However, in the future, NRC may be able
          to make the cask certification process more efficient. Based on OIG analysis of new
          cask certifications completed in 2000, use of the abbreviated direct final rule
          process(8) for future new cask certifications could result in significant savings in time
          and dollars.

          A.      CONGRESSIONAL INTENT WAS MET

          Congress envisioned that the dry storage required at nuclear power plants would be
          brought to pass through:

          •       An expedited process for approving the use of the technology, and
          •       A generic dry cask technology with parameters broad enough to be used by
                  multiple licensees.

          NRC’s actions to implement and comply with the language in Sections 133 and
          218(a) of the Act established a general license provision in the regulations to allow
          licensees to store spent fuel in dry casks without application or request for approval
          from NRC. As part of this new provision, the agency established a rulemaking
          process for NRC approval of a dry cask storage design. Rulemaking allows for
          written public comments on proposed rules rather than a hearing as with a site-
          specific licensing action. The general license provision and the rulemaking process
          for using cask designs was intended to streamline the approval process. However,
          benefits of this action have not yet been realized. There have been no hearings
          under any completed site-specific licensing actions. As a result, the rulemaking
          process for dry cask certifications under a general license takes about 1 year longer
          than the process for a site-specific license.(9)

          The use of a generic technology and the rulemaking process could have made it
          unnecessary for each site to obtain specific approval of a storage device as with the
          existing site-specific regulations. According to NRC and Department of Energy
          officials, the trend toward unique cask designs is the natural result of private industry
          driving the manufacture of casks. Vendors wish to offer customers their own cask,
          with proprietary features, rather than a generic cask that any other vendor could
          manufacture. As a result, NRC has certified 14 different casks since 1990. In



     8
          The direct final rule is a regulatory process that is used for noncontroversial regulatory
          amendments. See section titled Guidance Needs To Be Revised, page 7 of this report, for further
          clarification.
     9
          Hearings would add an undetermined amount of time to the process.


                                                   6
                                                            Review of NRC’s Dry Cask Storage Program


     addition, agency officials said amendments to approved casks are often needed to
     enable their use by utilities other than the original purchaser.

     Rulemaking takes longer than the site-specific process (without hearings) and a
     generic dry storage technology was not developed. However, reracking and limited
     use of dry cask storage kept plants from shutting down. Because no plants have
     shut down due to the loss of storage space, the intent of Congress has been met to
     this point in time. However, only limited increases in spent fuel storage can be
     obtained through continued reracking and dry cask storage will become more
     important.

     B.       OPPORTUNITIES EXIST TO GAIN EFFICIENCIES IN CASK CERTIFICATION

     NRC strives to impose only the level of burden on its stakeholders necessary to
     maintain safety. The agency has made improvements to its rulemaking process and
     uses an abbreviated format, the direct final rule process, to amend dry cask storage
     certificates of compliance. However, NRC has not defined the criteria for determining
     when to use this process(10) for new cask certifications. The agency may be able to
     realize greater efficiencies if it uses the direct final rule process for new cask
     certifications.

              Reduction of Regulatory Burden

     One of NRC’s performance goals is to reduce unnecessary regulatory burden on
     stakeholders through continuous improvement to the regulatory framework, and
     through improvements in processes to reduce unnecessary costs to stakeholders.
     NRC has taken a number of actions to improve the rulemaking process for dry cask
     storage under a general license:

     •        Due to its routine nature, the staff no longer has to prepare a separate
              rulemaking plan for each cask.

     •        The Commission has delegated to the Executive Director for Operations
              authority to review and approve rulemaking for dry cask storage activities.

     •        The Spent Fuel Project Office’s implementation of the direct final rule process
              for amendments reduced rulemaking time from 51 weeks to about 23 weeks.

              Guidance Needs To Be Revised

     The direct final rule is a regulatory process that is used for noncontroversial
     regulatory amendments. The NRC Regulations Handbook states that the rule



10
     During the course of this audit, NRC revised the NRC Regulations Handbook (NUREG-BR/0053,
     Rev 5) to provide additional guidance on the use of the direct final rule. The guidance suggests
     using the direct final rule process only for amendments to certificates of compliance rather than for
     original certifications.



                                                7
                                                                Review of NRC’s Dry Cask Storage Program


     becomes effective usually 75 days after publication. If NRC receives significant
     adverse comment(11) within the allowed public comment period, the agency withdraws
     the rule and uses the full rulemaking process.(12)

     A senior manager in the Spent Fuel Project Office said he would consider using the
     direct final rule process for new cask certifications if NRC more clearly defines the
     terminology. However, the NRC Regulations Handbook suggests use of the direct
     final rule process only for amendments to certificates.

              Significant Adverse Comments Should Be Explained

     In 1998, the Commission approved the staff’s recommendation to use the direct final
     rule process for certificates of compliance because NRC staff believed that additions
     and revisions to the list of approved spent fuel storage casks were noncontroversial
     and routine. The Commission agreed that if no significant adverse comments were
     received on two successive new cask certifications, the agency could begin using the
     direct final rule.(13)

     While one agency official stated that significant adverse comments have been
     received on recent new cask certifications, the agency does not specifically identify
     those comments to the public. And, because of these comments, the agency has not
     yet met the threshold agreed to by the Commission for beginning to use the direct
     final rule. The most recent cask certification received only two letters containing 14
     comments; both letters were from the cask vendor. NRC disagreed with four of the
     comments that asserted that the agency was being overly restrictive regarding certain
     technical specifications. In response to four other comments, NRC agreed to clarify
     language in the certificate of compliance and make an editorial change to the
     vendor’s safety analysis report. The remaining six comments identified needed
     editorial corrections to NRC’s safety evaluation report.

     The NRC Regulations Handbook provides criteria for determining whether a comment
     is significant and adverse. It would be beneficial for all stakeholders to know what the
     NRC criteria are for determining if a comment is significant and adverse. If the
     criteria were included in the rulemaking package, stakeholders would have a better
     understanding of how the NRC review process works and the basis for designating
     comments as significant and adverse.




11
     The Administrative Conference of the United States defines a significant adverse comment as “one
     where the commenter explains why the rule would be inappropriate, including challenges to the
     rule’s underlying premise or approach, or would be ineffective or unacceptable without a change.”
12
     A full rulemaking is started concurrent with a direct final rule. No time is lost if the direct final rule
     cannot be used because a significant adverse comment(s) is received.
13
     SECY-98-188, A Proposed Simplification of the Rulemaking Process for Certificate of Compliance
     Rulemakings, August 3, 1998. Staff Requirements memorandum - SECY-98-188, September 3,
     1998.

                                                   8
                                            Review of NRC’s Dry Cask Storage Program



       NRC Can Further Reduce Regulatory Burden

Draft Schedules for Rulemakings, used by the Spent Fuel Project Office, indicates
that it takes 51 weeks to add a new design to the approved list of certified casks
using the full rulemaking process. It takes 23 weeks to amend a certificate of
compliance using the direct final rule process. Therefore, the difference in time
between using full rulemaking and the direct final rule process is 28 weeks.

OIG reviewed four new cask certifications and four amendments issued in 2000. The
direct cost of rulemaking for each of the four new cask designs was about $75,000
more than the cost of using the direct final rule process for amendments. Additional
casks may have to be certified and potential savings in time and dollars could be
significant if NRC uses the direct final rule for new cask certifications.




                                  9
                                                      Review of NRC’s Dry Cask Storage Program


IV. SUMMARY

        Because of reracking and limited use of dry cask storage, no licensee to date has
        shut down a plant due to loss of spent fuel storage space. However, only limited
        additional storage capacity is available through continued reracking. More than 1000
        dry casks are expected to be in use by the end of the decade. Additional cask
        designs may need to be certified. Use of the direct final rule process for those
        certifications could result in significant savings of time and dollars. In addition,
        identification and explanation of the criteria for significant adverse comments would
        aid industry in improving submittals related to certification actions and the public in
        providing more focused comments.


V. RECOMMENDATIONS

        To improve the dry cask storage certification process, OIG recommends that the
        Executive Director for Operations:

        1.     Revise the NRC Regulations Handbook to recommend the use of the direct
               final rule for new cask certifications.

        2      Revise the NRC Regulations Handbook to clarify the definition of
               “noncontroversial” as it pertains to the use of the direct final rule.

        3.     Publish the criteria for significant adverse comments in each direct final rule
               package.


VI. MANAGEMENT RESPONSE

        On May 10 and June 6, 2001, OIG met with program office officials and staff from the
        Office of the Executive Director for Operations. They agreed with our
        recommendations, and provided informal editorial suggestions that have been
        incorporated into this report where appropriate.




                                           10
                                                                                        Appendix A
                                                          Review of NRC’s Dry Cask Storage Program


SCOPE AND METHODOLOGY

        The scope of this audit was limited to those areas of NRC operations related to the
        regulation of dry cask storage. To determine the adequacy of NRC’s efforts with dry
        cask storage, OIG attended an NRC public meeting, and conducted (1) a review of
        regulatory and program criteria governing the regulation of dry cask storage; (2)
        discussions with NRC personnel from the Offices of Nuclear Material Safety and
        Safeguards, the General Counsel, Nuclear Reactor Regulation, and Nuclear
        Regulatory Research; (3) on-site visits to a dry cask manufacturer and a facility using
        dry cask storage systems; (4) interviews with industry representatives, a public
        information group, a former NRC Commissioner, and Department of Energy
        representatives; (5) a review of Spent Fuel Project Office files; and (6) analysis of
        data from NRC’s Resource Information Tracking System.

        This audit was conducted from August 2000 to March 2001 in accordance with
        generally accepted Government auditing standards and included a review of
        management controls related to the objectives of the audit. The major contributors to
        this report were William McDowell, Robert Moody, David Horn, and Yvette Russell.




                                           11
                              Review of NRC’s Dry Cask Storage Program




[Page intentionally left blank.]




              12
                                                                                                                                            Appendix B
                                                                                                              Review of NRC’s Dry Cask Storage Program


SIMPLIFIED VIEW OF NRC’S CASK APPROVAL PROCESS




                                                                                      Yes


                                                                Sufficient
                                       Staff conducts
                  Application                                information for                       Issue request for               Complete safety
                                           safety                                      No
                   received                                       safety                         additional information              evaluation
                                         evaluation
                                                             determination?




               Hearing granted?                            Site-Specific License


                                                                                       General License



                                                                               Prepare draft safety evaluation
   No                 Yes                                                      report (SER) and certificate of
                                                                               compliance (CoC), and Federal
                                                                                       Register notice
                                                                                      (17 to 68 weeks)




                                                                                      RULEMAKING




          Length of hearing process
                                                                          New cask                     Amendment
                 not known



                                                                                                                                            Use direct final rule
                                                                                            No                Noncontroversial?    Yes
                                                                                                                                                   (DFR)




                                                                                                                                               Significant
                                                           Use full rulemaking
                                                                                                                 Withdraw DFR     Yes       adverse comment
                                                                 process
                                                                                                                                                received?


                                                                                                                                                     No




                                                          NRC resolves comments
                                                                 received




            Final SER, environmental
                                                         Final SER and CoC issued                                                        Final SER and CoC issued
           review, and license issued
                                                        (additional 48-51 weeks for                                                       (additional 23 weeks for
                    (no CoC)
                                                           rulemaking after SER)                                                            rulemaking after SER)
        (17 to 68 weeks without hearing)




                                                                                 13
14
